HHS/OIG-AUDIT--Financial Statement Audit of the Indian Health Service for FY1995 (A-17-95-00050)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Report on the Financial Statement Audit of the Indian Health Service
for Fiscal Year 1995," (A-17-95-00050)
February 9, 1997
Complete Text of Report is available in PDF format
(1M). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of the certified public accounting firm Clifton,
Gunderson L.L.C. (CG) in its audit of the Department of Health and Human Services,
Indian Health Service (IHS) statement of financial position (balance sheet)
for the fiscal year (FY) ended September 30, 1995. The Office of Inspector General
exercised technical oversight and quality control over the audit.
We engaged CG to audit the statement of financial position and to express an
opinion on that statement. The firm issued a disclaimer of opinion on the IHS
statement of financial position because of several matters which limited the
scope of CG's work. Most significantly, property and equipment balances were
not supported by adequate documentation as of September 30, 1995. In addition,
documentation was not available to support the balances of advances, deferred
revenue, accounts payable, other liabilities, and components of net position
for September 30, 1995.
As part of the audit engagement, CG also rendered separate reports on internal
controls and on compliance with laws and regulations. In the report on internal
controls, CG noted four material weakness and five reportable conditions. The
four material weaknesses, which resulted in the disclaimer indicated above,
are as follows:
Property and equipment cost balances ($636,356,000) were not reliable or
supported by adequate documentation;
Accounts receivable balances ($20,000,000) in the general ledger could not
be adequately supported;
Deferred revenue amounts ($48,000,000) could not be supported by adequate
documentation; and
Accounts payable reconciliations were not performed on a timely basis.
In addition, CG noted the following five reportable conditions:
Treasury fund accounts were not reconciled in a timely manner;
Inventory at various hospitals was not counted or valued as of September
30, 1995;
Goods and services received at the end of the year were not being accrued
in the appropriate year;
Commissioned corps leave balances and accrued leave amounts were not available
or recorded in IHS's financial statements; and
Security access and administrative controls of IHS financial systems need
improvement.
In the report on compliance with laws and regulations, CG noted no instances
of noncompliance required to be reported under Government Auditing Standards.
In our oversight of the audit, we found nothing to indicate that CG's work is
inappropriate or that CG's reports cannot be relied upon.
The IHS management has concurred with all of the findings and recommendations
identified during the FY 1995 audit. We are encouraged by IHS management's responsiveness
to the issues and to the progress being made as the audit of the FY 1996 financial
statements proceeds.